                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A-03110070                                                                       Page 1 of 1



         We received an allegation that subjects 1 and 2, PI and co-PI, respectively, on the NSF proposal
         (the subjects' proposal),1took the idea for the proposal from another scientist's NSF proposal
         (the scientist's proposal)2submitted over 1?4years earlier.

         Our review showed that neither subject reviewed the scientist's proposal. We noted that subject 1
         had been working in the particular area of research for at least 4 years and that the scientist's
         proposal cited subject 1's prior and continuing work in this particular area numerous times in the
         proposal, including lengthy discussions of subject 1's ongoing and prior work. The scientist
         explained that he frequently discussed with subject 1 what he was doing. Our comparison of the
         scientist's and the subjects' proposals showed that, although they contained similar ideas, the ideas
         were not identical.
                          \
         This case is closed and no further action taken.




                                      ;;;le  d                 was'
                                                                  ''III
                                           b This proposal was      111

                                                                                                                 I
VSF OIG Form 2 (1 1/02)
                                                                                                                 I
